                                      SOCIAL SECURITY
MEMORANDUM
Date:   November 19, 2003                                               Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Assistant Inspector General
         for Audit

Subject: San Francisco Department of Human Services – An Organizational Representative
        Payee for the Social Security Administration (A-09-03-13011)


        Attached is a copy of our final report. The objectives of our review were to determine
        whether the San Francisco Department of Human Services (1) had effective safeguards
        over the receipt and disbursement of Social Security benefits and (2) ensured Social
        Security benefits were used and accounted for in accordance with the Social Security
        Administration’s policies and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me at (410) 965-9700.




                                               S
                                               Steven L. Schaeffer



        Attachment

        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


           SAN FRANCISCO
       DEPARTMENT OF HUMAN
   SERVICES – AN ORGANIZATIONAL
   REPRESENTATIVE PAYEE FOR THE
  SOCIAL SECURITY ADMINISTRATION

   November 2003    A-09-03-13011




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE
Our objectives were to determine whether the San Francisco Department of Human
Services (SFDHS) (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees to receive and manage these beneficiaries’
payments.1 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance
beneficiaries or Supplemental Security Income recipients when representative
payments would serve the individual’s interests. Representative payees are
responsible for using benefits in the beneficiary’s best interests.

SFDHS is a social services agency for the City and County of San Francisco. From
May 1, 2001 to April 30, 2002, SFDHS received $782,687 in Social Security benefits
on behalf of 145 beneficiaries, including 124 children and 21 adults.

RESULTS OF REVIEW
Generally, SFDHS (1) had effective safeguards over the receipt and disbursement
of Social Security benefits and (2) ensured Social Security benefits were used in
accordance with SSA’s policies and procedures. However, we identified seven areas
where SFDHS could improve its performance as a representative payee. Specifically,
SFDHS did not always report Title IV-E payments, notify SSA of changes in custody,
identify excess resources, cancel unnegotiated checks, conserve excess funds,
maintain individual accounts, and properly title the bank account for its beneficiaries
(see Appendix A for a summary of monetary results).

In addition, we identified one area where SSA needs to improve its monitoring of
representative payees. Specifically, SSA did not update its Representative Payee
System to accurately reflect the beneficiaries in SFDHS’ care.



1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                                          i
RECOMMENDATIONS
During our audit, SFDHS refunded $143,520 in overpayments to SSA. We recommend
that SSA direct SFDHS to refund an additional $15,364 in overpayments and $12,733 in
beneficiary funds. We also recommend that SSA direct SFDHS to establish $8,214 in
conserved funds, amend the title of its bank account for child beneficiaries, and develop
procedures to ensure the Social Security benefits are properly accounted for. In
addition, we recommend that SSA update its Representative Payee System to include
all beneficiaries for whom SFDHS was selected as representative payee.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix B.

REPRESENTATIVE PAYEE COMMENTS

SFDHS agreed with all of our recommendations. The full text of SFDHS’ comments is
included in Appendix C.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                  ii
                                                                         Table of Contents
                                                                                                                   Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

   Concurrent SSI and Title IV-E Payments Not Reported .............................................. 4

   Changes in Custody Not Reported Timely .................................................................. 5

   Excess Resources Resulted in SSI Overpayments..................................................... 7

   Unnegotiated Checks Not Canceled for Adult Beneficiaries........................................ 7

   Excess Funds Not Conserved for Child Beneficiaries ................................................. 8

   Accounting for Social Security Benefits Could be Improved........................................ 9

   Bank Account Not Properly Titled ............................................................................. 10

   Beneficiaries Not Entered into RPS .......................................................................... 10

CONCLUSIONS AND RECOMMENDATIONS ............................................................ 12

OTHER MATTERS ...................................................................................................... 14

   Representative Payee Reports Not Available ........................................................... 14

   Conserved Funds Held in a Non-interest-bearing Account ....................................... 14

   Benefit Payments Not Accurately Recorded ............................................................. 15

APPENDICES

APPENDIX A – Summary of Monetary Results

APPENDIX B – Agency Comments

APPENDIX C – Representative Payee Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
                                                                     Acronyms
CFR                         Code of Federal Regulations

FFA                         Foster Family Agency

OASDI                       Old-Age, Survivors and Disability Insurance

OIG                         Office of the Inspector General

POMS                        Program Operations Manual System

RPR                         Representative Payee Report

RPS                         Representative Payee System

SFDHS                       San Francisco Department of Human Services

SSA                         Social Security Administration

SSI                         Supplemental Security Income

USC                         United States Code




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
                                                                              Introduction
OBJECTIVE
Our objectives were to determine whether the San Francisco Department of Human
Services (SFDHS) (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees to receive and manage these beneficiaries’
and recipients’ benefit payments.2 A representative payee may be an individual or an
organization. SSA selects representative payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individual’s interest.

Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. Their duties include:3

•    using benefits to meet the beneficiary’s current and foreseeable needs;

•    conserving and investing benefits not needed to meet the beneficiary’s current
     needs;

•    maintaining accounting records of how the benefits are received and used;

•    reporting events to SSA that may affect the individual's entitlement or benefit
     payment amount;

•    reporting any changes in circumstances that would affect their performance as a
     representative payee; and

•    providing SSA an annual Representative Payee Report (RPR) accounting for how
     benefits were spent and invested.



2
    42 U.S.C. §§ 405(j) and 1383(a)(2) (2003).
3
    See id.; 20 C.F.R. Part 404, Subpart U, and Part 416, Subpart F (2003).


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                   1
About 7.6 million individuals have representative payees—approximately 4.5 million
are OASDI beneficiaries, 2.3 million are SSI recipients, and 800,000 are entitled to both
OASDI and SSI. The following chart reflects the types of representative payees and the
number of individuals they serve.

                                                        Number of
                  Type of                             Representative           Number of
            Representative Payee                         Payees            Individuals Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                         5,333,200           6,685,100
 Organizational Payees: State Institutions,
 Local Governments, and Others                                   41,500              807,400

 Organizational Payees: Fee-for-Service                             900              104,200

 Total                                                         5,375,600           7,596,700
Source: Master Representative Payee File as of January 2003.

SFDHS is a social services agency for the City and County of San Francisco. SFDHS
has operated as an organizational representative payee for individuals who received
payments under the OASDI and SSI programs for about 25 years. From May 1, 2001 to
April 30, 2002, SFDHS received $782,687 in Social Security benefits on behalf of
145 beneficiaries, including 124 children and 21 adults. A breakdown of these
payments is depicted in the following chart. Effective December 2002, SFDHS
discontinued its services as representative payee for adult beneficiaries.

    Type of                    Social Security Benefits                         Number of
   Beneficiary           OASDI          SSI                       Total        Beneficiaries

 Children                  $253,666            $363,893            $617,559              124

 Adults                       64,120             101,008            165,128               21

       Total               $317,786            $464,901            $782,687              145

As a representative payee, SFDHS uses three operational units to fulfill its duties and
responsibilities. These units include social workers, eligibility workers, and fiscal
employees. The social workers maintain contact with the beneficiaries and foster
homes and approve expenses necessary for the cost of care. The eligibility workers
apply for sources of funding on behalf of the beneficiaries. The fiscal employees
receive, record, and deposit the Social Security benefits.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                          2
SCOPE AND METHODOLOGY
Our audit covered the period of May 1, 2001 through April 30, 2002. To accomplish our
objectives, we:

•   Reviewed the Social Security Act and SSA policies and procedures pertaining to
    representative payees.

•   Contacted SSA regional office and field office staffs to obtain background
    information about the representative payee’s performance.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals
    who were in the representative payee’s care as of April 30, 2002 or who left the
    representative payee’s care after May 1, 2001.

•   Obtained from the representative payee a list of individuals who were in its care and
    had received SSA funds as of April 30, 2002 or who left its care after May 1, 2001.

•   Compared and reconciled the RPS list to the representative payee’s list to identify
    the population of SSA beneficiaries who were in the representative payee’s care
    from May 1, 2001 to April 30, 2002.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of OASDI benefits and SSI payments.

•   Performed the following tests for all beneficiaries.

    -   Compared and reconciled benefit amounts received according to the
        representative payee’s records to benefit amounts paid according to SSA’s
        records.

    -   Reviewed the representative payee’s accounting records to determine whether
        benefits were properly spent or conserved on the individual’s behalf.

•   Traced a sample of recorded expenses to source documents and examined the
    underlying documentation for reasonableness and authenticity.

•   Reviewed a sample of RPRs to determine whether the representative payee
    properly reported to SSA how benefits were used.

We performed our field work in Richmond and San Francisco, California, between
August 2002 and April 2003. We conducted our audit in accordance with generally
accepted government auditing standards.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                    3
                                                         Results of Review
Our audit disclosed that SFDHS (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits
were used in accordance with SSA’s policies and procedures. However, we identified
seven areas where SFDHS could improve its performance as a representative payee.
Specifically, SFDHS did not always report Title IV-E payments, notify SSA of changes
in custody, identify excess resources, cancel unnegotiated checks, conserve excess
funds, maintain individual accounts, and properly title the bank account for its
beneficiaries (see Appendix A for a summary of monetary results).

In addition, we identified one area where SSA needs to improve its monitoring of
representative payees. Specifically, SSA did not update RPS to accurately reflect the
beneficiaries in SFDHS’ care.

Concurrent SSI and Title IV-E Payments Not Reported
SFDHS did not ensure SSI recipients who received Title IV-E payments were reported
to SSA in a timely manner. Although SFDHS received current and retroactive Title IV-E
payments on behalf of children in foster care, it did not always notify SSA to determine
whether such payments affected continuing entitlement to SSI payments. As a
result, seven recipients received $94,097 in SSI payments to which they were not
entitled.

SSA’s procedures require that representative payees report any changes to SSA that
may affect the individual’s entitlement or benefit payment amount.4 In addition, SSA’s
Guide for Organizational Representative Payees requires that such payees report any
changes or events that could affect the beneficiary’s eligibility for benefits or payment
amount, such as changes in income (for example, receipt of other Federal benefits).5

The Foster Care and Adoption Assistance Program, authorized under Title IV-E of the
Social Security Act,6 helps States provide care for children who need placement outside
their homes in a foster family home or an institution. The program provides Federal
matching funds to States that administer the program. SSA’s procedures state that,
if the source of payments for the care is federally funded income based on need (for




4
    SSA’s Program Operations Manual System (POMS), section GN 00502.113.
5
 Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, pages 8 and 23.
6
    42 U.S.C. §§ 670-679A (2003); 20 C.F.R. § 416.1143 (2003).


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                              4
example, foster care under Title IV-E), the total payment is considered cash income to
the individual, and the SSI payment is reduced dollar for dollar.7

We found that SFDHS generally relied on eligibility workers to notify fiscal employees
when children in foster care were eligible for Title IV-E payments. However, in seven
cases, SFDHS did not (1) identify the concurrent receipt of SSI and Title IV-E payments
and (2) report all changes in income to SSA. As depicted in the table below, these
individuals received $94,097 in overpayments from July 1996 to February 2003.

           Case                    Payment                   Number of         Total
          Number                    Dates                     Months       Overpayments

    328845-11                     3/01 - 12/02                    22              $19,755

    404030-11                     12/00 - 2/03                    27               16,960

    411611-11                     1/01 - 6/02                     18               15,991

    897598-13                     7/96 - 3/02                     69               15,845
                                                                       8
    767353-12                     4/01 - 1/03                     20               14,249

    748956-12                     10/00 - 7/01                    10                7,077

    230152-11                     1/97 - 3/02                     63                4,220

            Total                                                229              $94,097

SFDHS agreed with our findings and took corrective action during our audit. From
November 2002 to April 2003, SFDHS refunded $94,097 in overpayments to SSA.
Therefore, we are not recommending a refund for this amount.

Changes in Custody Not Reported Timely
SFDHS received benefit payments for child beneficiaries who were no longer in its care.
This occurred because SFDHS did not report changes in custody for its beneficiaries in
a timely manner. Since SSA was unaware of these changes, it continued to disburse
payments to SFDHS on behalf of these individuals. As a result, seven beneficiaries did
not receive $49,423 in benefit payments to which they were entitled.




7
    POMS, sections SI 00835.706 and SI 00835.790.
8
    The beneficiary did not receive SSA benefits for June and July 2001.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                      5
SSA’s procedures require that representative payees report any changes of custody
and return any benefits to which the beneficiary is not entitled. Furthermore, any
conserved funds or unused benefits must be returned to SSA.9 In addition, SSA’s
Guide for Organizational Representative Payees requires that such payees (1) report
changes in custody (including adoption) for child beneficiaries and (2) return any
conserved funds if they no longer serve as representative payee.10

SFDHS generally relied on eligibility or social workers to notify fiscal employees of
any changes in custody for its child beneficiaries. However, SFDHS did not ensure
these changes were promptly reported to the SSA field office. As depicted in the table
below, seven beneficiaries did not receive $49,423 in Social Security benefits from
September 1999 to February 2003. Therefore, these individuals could not use the
benefit payments for personal needs.

           Case                    Payment              Number of                 Benefit
          Number                    Dates                Months                  Payments

     A03525-11                     9/99 - 6/01               22                          $18,704

     960975-12                     5/01 - 2/03               22                           11,186

     560083-12                 12/99 - 5/01                  18                             6,478

     241826-11                     4/02 - 8/02                5                             4,590

     947018-12                 9/00 - 11/02                  27                             4,379

     297519-15                 11/01 - 1/02                   3                             2,662

     430048-11                     5/01 - 6/01                2                             1,424

            Total                                            99                          $49,423

SFDHS agreed with our findings and took corrective action during our audit. From
November 2002 to April 2003, SFDHS refunded $49,423 in overpayments to SSA.
Therefore, we are not recommending a refund for this amount.




9
     POMS, section GN 00502.113.
10
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, pages 9 and 22.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                               6
Excess Resources Resulted in SSI Overpayments
SFDHS received SSI payments for adult recipients with conserved funds in excess
of the $2,000 resource limit. For three cases, SFDHS did not properly monitor
the conserved funds and notify SSA of excess resources. In one of these cases,
SSA identified the excess resources but SFDHS had only partially refunded the
overpayment. As a result, three recipients received $15,364 in SSI payments to which
they were not entitled.

SSA’s procedures state that individuals with resources in excess of $2,000 are not
eligible for SSI payments. Individuals must use these excess resources to meet their
needs before they may receive additional SSI payments. Representative payees must
notify SSA if the conserved funds for an SSI recipient exceed the $2,000 resource limit
at the beginning of any calendar month.11

SFDHS did not have adequate procedures to identify excess resources. Therefore,
two adult recipients received $1,196 in benefit payments in excess of the SSI resource
limit. In addition, SFDHS did not take sufficient action for one adult recipient with
conserved funds in excess of the SSI resource limit. Although SSA identified $19,937 in
overpayments in July 2001, SFDHS only refunded $5,769 in August 2001 and had not
refunded the remaining $14,168 to SSA.

Unnegotiated Checks Not Canceled for Adult Beneficiaries
SFDHS did not cancel the unnegotiated checks it had issued for the adult beneficiaries
in its care. We found that SFDHS had disbursed the payments to meet the current
maintenance needs of its beneficiaries. However, the checks were outstanding for over
1 year and had not been negotiated for payment. These funds belonged to the
beneficiaries and should have been credited to their accounts. As a result, these
individuals did not receive $12,733 in beneficiary funds to which they were entitled.

SSA’s procedures require that representative payees use the benefits they receive
to meet the beneficiary’s needs and best interests. Representative payees are
responsible for keeping records and reporting on the use of benefits.12 In addition,
SSA’s Guide for Organizational Representative Payees requires that such payees
return any conserved funds if they no longer serve as representative payee.13

SFDHS generally relied on social workers to initiate stop payment orders before
fiscal employees canceled any stale-dated checks. Nevertheless, SFDHS did not
cancel 81 outstanding checks in a timely manner. These checks were dated back to

11
     POMS, sections SI 01110.001 and SI 01110.003.
12
     POMS, section GN 00605.001.
13
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, page 9.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                               7
March 1991. As depicted in the chart below, SFDHS had $12,733 of unnegotiated
checks as of April 2003.



                                         Aging of Outstanding Checks
                                                             As of April 2003

                        $7,000

                        $6,000
        Total Dollars




                        $5,000

                        $4,000

                        $3,000

                        $2,000

                        $1,000

                           $0
                                 2001 - 2002   1999 - 2000    1997 - 1998   1995 - 1996   1993 - 1994   1991 - 1992




Effective December 2002, SFDHS discontinued its services as representative payee for
adult beneficiaries. Therefore, SFDHS should cancel the outstanding checks and return
the beneficiary funds to SSA.

Excess Funds Not Conserved for Child Beneficiaries
SFDHS did not conserve the excess funds of child beneficiaries placed in foster homes
through a foster family agency (FFA). Although SFDHS paid a monthly fee to each
FFA, these fees were only partially attributable to the beneficiary’s current maintenance
needs. We found that SFDHS had not determined whether the amount of SSA benefits
exceeded the cost of basic and incremental care for the beneficiary. As a result, four
beneficiaries did not receive $4,150 in benefit payments to which they were entitled.

Federal regulations require that representative payees use the benefit payments for the
beneficiary’s current maintenance needs. These needs include the costs incurred for
food, shelter, clothing, medical care, and personal comfort items.14 Any remaining
amount shall be conserved or invested on the beneficiary’s behalf.15



14
     20 C.F.R. §§ 404.2040(a) and 416.640(a) (2003).
15
     POMS, section GN 00603.001.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                                                8
From May 1, 2001 to April 30, 2002, SFDHS served as representative payee for
124 child beneficiaries, of whom 32 were placed in foster homes through an FFA. The
California Department of Social Services establishes payment rates for each FFA based
on the child’s age. SFDHS pays the monthly fee when it places child beneficiaries in
foster homes through an FFA. The fee includes amounts for the cost of basic care,
incremental care, administration, and social work. Although the basic and incremental
care costs support the beneficiary’s current maintenance needs, the administration and
social work costs do not support these needs.

Our review disclosed that FFA fees generally ranged from about $1,400 to $2,100 per
month. Of this amount, about 40 percent related to basic and incremental care while
about 60 percent related to administration and social work. In 28 cases, the cost of
basic and incremental care exceeded the amount of SSA benefits received by SFDHS
and paid to the FFA. As a result, there were no conserved funds remaining for the
beneficiaries. However, in four cases, the amount of SSA benefits exceeded the cost of
basic and incremental care and should have resulted in $4,150 of conserved funds for
the beneficiaries.

Accounting for Social Security Benefits Could be Improved
SFDHS did not properly account for the Social Security benefits on behalf of its child
beneficiaries. This occurred because SFDHS used two accounting systems to record
the benefits received and disbursed for children in foster care. In addition, SFDHS was
unaware of the requirement to maintain individual accounts for its beneficiaries. As a
result, four beneficiaries did not receive $4,064 in benefit payments to which they were
entitled.

Federal regulations state that representative payees should keep records of (1) the
amount of benefit payments on hand at the beginning of the accounting period, (2) how
the benefit payments were used, (3) how much of the benefit payments was saved and
how the savings were invested, (4) where the beneficiary lived during the accounting
period, and (5) the amount of income received by the beneficiary from other sources
during the accounting period.16

SSA’s procedures require that representative payees apply benefits received on
behalf of a beneficiary only for the use and benefit of that beneficiary. Although
representative payees may establish collective accounts for funds belonging to
more than one beneficiary, they must maintain records showing the amount of each
individual’s share in the account.17

From May 1, 2001 to April 30, 2002, SFDHS received $617,559 in Social Security
benefits on behalf of 124 child beneficiaries. During our audit, SFDHS was unable to
provide a detailed accounting of the benefits received and disbursed for children in

16
     20 C.F.R. §§ 404.2065 and 416.665 (2003).
17
     POMS, sections GN 00602.001 and GN 00603.020.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                     9
foster care. We reviewed the accounting records to compare the monthly income and
expenses for each beneficiary. For four individuals, we found that SFDHS received
$4,064 of income in excess of expenses. However, because SFDHS did not maintain
individual accounts, it did not conserve these funds on behalf of the beneficiaries.

Bank Account Not Properly Titled
SFDHS did not properly establish the bank account for the child beneficiaries in its
care. We found that SFDHS had incorrectly titled the checking account for children in
foster care to show the funds belonged to the representative payee rather than the
beneficiaries. However, the account should have reflected that SFDHS only retained a
fiduciary interest in the funds. As a result, these individuals are vulnerable to the risk of
loss of beneficiary funds.

SSA’s procedures require that representative payees deposit funds not needed for
the beneficiary’s current maintenance needs in an account that is titled to show
the representative payee only retains a fiduciary interest in the funds. Generally,
representative payees must not commingle a beneficiary’s funds with their personal or
organizational operating funds.18

Our review disclosed that SFDHS had established the checking account as part of
the general fund for the City and County of San Francisco rather than as a trust or
custodian account. Therefore, SFDHS was incorrectly listed as the owner of the funds.
SFDHS should establish a separate account to protect beneficiary funds in the event of
bank failure.

Beneficiaries Not Entered into RPS
SSA did not update RPS to accurately reflect the beneficiaries in SFDHS’ care.
This occurred, in part, because SSA employees may bypass RPS to establish a
representative payee by identifying individuals or organizations as the beneficiaries’
representative payee directly on the Master Beneficiary Record or Supplemental
Security Record. As a result, RPS did not identify SFDHS as representative payee for
25 beneficiaries in its care.

The Omnibus Budget Reconciliation Act of 199019 requires that SSA provide for
specific identification and control of all representative payees and the beneficiaries they
serve. As a result, SSA established RPS, an on-line system for entering and retrieving
information about representative payees and those applying to be representative
payees. RPS contains data about representative payee applicants, beneficiaries in the
representative payee’s care, and the relationship between the representative payee and
the beneficiaries.


18
     POMS, sections GN 00603.010 and GN 00603.020.
19
     Pub. L. No. 101-508 § 5105, codified at 42 U.S.C. § 405(j)(2).


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                     10
From May 1, 2001 to April 30, 2002, SFDHS served as representative payee
for 124 child beneficiaries and 21 adult beneficiaries. However, we identified
25 beneficiaries for whom SFDHS had served as the representative payee but for
whom SFDHS was not recorded as the representative payee in RPS. For these
beneficiaries, SSA did not ensure that changes in representative payees were properly
entered into RPS. Without complete and accurate information, SSA may be unable to
effectively monitor the performance of its representative payees.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)              11
                                                  Conclusions and
                                                 Recommendations
Generally, SFDHS (1) had effective safeguards over the receipt and disbursement
of Social Security benefits and (2) ensured Social Security benefits were used in
accordance with SSA’s policies and procedures. However, SFDHS did not always
report Title IV-E payments, notify SSA of changes in custody, identify excess resources,
cancel unnegotiated checks, conserve excess funds, maintain individual accounts, and
properly title the bank account for its beneficiaries. In addition, SSA did not update RPS
to accurately reflect the beneficiaries in SFDHS’ care. We recommend that SSA:

1.   Ensure SFDHS develops procedures to identify and report changes in income for
     SSI recipients who receive Title IV-E payments.

2.   Ensure SFDHS develops procedures to promptly report changes in custody for
     its child beneficiaries and return conserved funds if they no longer serve as
     representative payee.

3.   Direct SFDHS to refund $15,364 in overpayments for SSI recipients with conserved
     funds in excess of the $2,000 resource limit.

4.   Ensure SFDHS develops procedures to identify and report SSI recipients with
     excess resources in a timely manner.

5.   Direct SFDHS to cancel its unnegotiated checks and refund $12,733 in beneficiary
     funds to SSA.

6.   Direct SFDHS to establish $4,150 in conserved funds for the child beneficiaries
     placed in foster homes through an FFA.

7.   Ensure SFDHS develops procedures to identify and conserve funds in excess of
     current maintenance needs for child beneficiaries with FFA fees.

8.   Direct SFDHS to establish $4,064 in conserved funds for the child beneficiaries
     who received income in excess of expenses during our audit period.

9.   Direct SFDHS to maintain individual accounts for child beneficiaries to ensure the
     benefits received and disbursed are properly accounted for.

10. Ensure SFDHS amends the title of its bank account for child beneficiaries to reflect
    their ownership interest in the funds.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                  12
11. Update RPS to include all beneficiaries for whom SFDHS was selected as
    representative payee.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The full text of SSA’s comments is
included in Appendix B.

REPRESENTATIVE PAYEE COMMENTS
SFDHS agreed with all of our recommendations. The full text of SFDHS’ comments is
included in Appendix C.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)           13
                                                             Other Matters
Representative Payee Reports Not Available
As part of our audit, we requested that SSA provide the most recently completed RPRs
for 30 beneficiaries who were in SFDHS’ care from May 1, 2001 to April 30, 2002. SSA
provided current RPRs for 10 of the 30 beneficiaries. However, SSA could not provide
current RPRs for the remaining 20 beneficiaries. SFDHS generally did not retain copies
of the most recent RPRs submitted to SSA.

SSA’s procedures require that representative payees complete RPRs to account for
the benefits received and used for all beneficiaries in their care. Representative payees
are required to report such information to SSA annually. In addition, SSA is required
to review the RPRs and retain these reports for 2 years after the last month of the
reporting period.20

Although SSA initially provided 47 RPRs, we found that only 10 pertained to the current
reporting period while 26 pertained to prior reporting periods. Another 10 pertained to
beneficiaries for whom we had not requested RPRs. The remaining one represented a
duplicate copy of an RPR for the current reporting period. Because SSA did not provide
all the RPRs requested, we could not independently determine whether SFDHS met its
reporting responsibilities. Furthermore, we could not determine whether SFDHS (1) did
not submit the reports or (2) submitted the RPRs and SSA could not locate them.

Conserved Funds Held in a Non-interest-bearing Account
SFDHS held conserved funds for its adult beneficiaries in a non-interest-bearing
checking account. SFDHS did not invest these funds because it was unaware SSA
had recommended the use of interest-bearing accounts for balances in excess of $500.
As of April 30, 2002, SFDHS held $39,610 in conserved funds for the adult beneficiaries
in its care. As a result, these beneficiaries did not earn interest on their conserved fund
balances.

SSA’s procedures state that any funds not needed for the beneficiary’s immediate
or reasonably foreseeable needs must be conserved or invested with minimum risk.
These funds may be deposited in an interest-bearing or dividend-bearing account in a
bank, trust company, credit union, or savings and loan association that is insured under
either Federal or State law. For each beneficiary with more than $500 in conserved
funds, SSA recommends that representative payees deposit such funds
in interest-yielding investments.21

20
     POMS, sections GN 00605.001 and GN 00605.055.
21
     POMS, sections GN 00603.001 and GN 00603.010.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                   14
From May 1, 2001 to April 30, 2002, SFDHS held conserved funds in excess of $500 for
14 of the 21 adult beneficiaries in its care. However, effective December 2002, SFDHS
discontinued its services as representative payee for adult beneficiaries. Therefore, we
do not have any further recommendations.

Benefit Payments Not Accurately Recorded
SFDHS inadvertently posted two benefit payments to the incorrect adult beneficiary. In
May 2001, SFDHS received $649 in OASDI benefits and $158 in SSI payments for one
adult beneficiary. However, SFDHS incorrectly recorded these payments on behalf of
another adult beneficiary. As a result, one beneficiary did not receive $807 in benefit
payments to which he was entitled.

SSA’s procedures require that representative payees maintain adequate records of
how benefits are received and used for each beneficiary.22 In addition, SSA’s Guide
for Organizational Representative Payees requires that such payees establish an
accounting system to track how much money was received, how much money was
spent, and the balance saved for each beneficiary.23

In December 2002, SFDHS adjusted its accounting records for the beneficiary who
received the overpayment. Although the beneficiary who incurred the underpayment
died in April 2002, SFDHS initiated corrective action to return the funds to the
beneficiary’s estate. Therefore, we do not have any further recommendations.




22
     POMS, section GN 00502.113.
23
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2001, page 27.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                           15
                                           Appendices




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
                                                                         Appendix A

Summary of Monetary Results

                           Finding                                         Amount
 Concurrent Supplemental Security Income and Title IV-E
 Payments Not Reported                                                        $94,097

 Changes in Custody Not Reported Timely                                       $49,423
 Excess Resources Resulted in Supplemental Security
 Income Overpayments                                                          $15,364

 Unnegotiated Checks Not Canceled for Adult Beneficiaries                     $12,733

 Excess Funds Not Conserved for Child Beneficiaries                            $4,150

 Accounting for Social Security Benefits Could be Improved                     $4,064

                                 Total                                       $179,831




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
                                                                         Appendix B

Agency Comments




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
                                 SOCIAL SECURITY
MEMORANDUM
Date:   October 27, 2003                                           Refer To:   S2D9G3

To:     Assistant Inspector General
        for Audit

From:   Assistant Regional Commissioner
        Management and Operations Support
        San Francisco

Subject: San Francisco Department of Human Services – An Organizational Representative Payee
        for the Social Security Administration (A-09-03-13011) – REPLY

Thank you for the opportunity to review the formal draft report, including the eleven
recommendations, for the San Francisco Department of Human Services (SFDHS).

The San Francisco Downtown field office (FO) agrees with the eleven recommendations and has been
actively working with SFDHS to improve their accounting procedures to prevent overpayments and
to insure that conserved funds are properly identified and maintained. Once we receive information
from the IG audit team which identifies the specific cases with names and social security numbers,
we will proceed to collect the remaining overpayments and credit them to the proper accounts.

As for the retitling of the bank account for the child beneficiaries, we have long been aware of the
problem and have brought it to the attention of the SFDHS many times in the past. However, due to
technical legalities within the City and County of San Francisco, the city and county have not been
willing to approve the legal changes that would be necessary for SSA and SSI monies to be maintained
in a separate account with the proper titling. However, we will continue to work with the County
Treasurer to explore other avenues on how the account can be retitled to meet SSA requirements.

The FO is already working to update the Representative Payee System (RPS) to insure that it correctly
reflects all the beneficiaries for whom SFDHS is the payee. The FO will continue to stress the proper
and timely reporting of events that affect eligibility, the importance of returning conserved funds and
better recordkeeping by addressing these subjects on a case-by-case basis and by providing additional
training to the SFDHS staff. Special emphasis will be placed on issues dealing with conserved funds that
belong to children.

For further information staff may contact Cheryl Jacobson, Center for Programs, at 510-970-8248.

                                                                   /s/
                                                                   Ron Sribnik for
                                                                   Patrick E. Sheehan


 SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                       B-1
cc:
OPSOS
OISP
DCFAM




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)   B-2
                                                                         Appendix C

Representative Payee Comments




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
City and County of San Francisco                                 Department of Human Services
                                                                                           Trent Rhorer
                                                                                         Executive Director

                                                                                         Deputy Directors
                                                                                      Janice Anderson Santos
                                                                                             Jim Buick
                                                                                            Sally Kipper
    October 28, 2003

    Steven L. Schaeffer
    Assistant Inspector General for Audit
    Office of the Inspector General/Office of Audit
    Social Security Administration
    Baltimore, MD 21235-0001

    SUBJECT:       Response to Audit Report “San Francisco Department of Human Services:
                   An Organizational Representative Payee for the Social Security Administration”
                   (A-09-03-13011).

    Dear Mr. Schaeffer:

    Thank you for your September 16, 2003 letter requesting our response to the findings and
    recommendations in the draft audit report A-09-03-13011, “San Francisco Department of Human
    Services: An Organizational Representative Payee for the Social Security Administration,” covering the
    period May 1, 2001 to April 30, 2002.

    Below are the specific areas you identified as needing improvement by the San Francisco Department of
    Human Services (SFDHS) in its role as Representative Payee for adult and child SSA/SSI beneficiaries,
    along with our responses:

    1.      Concurrent SSI and Title IV-E Payments Not Reported: SFDHS did not ensure SSI
            recipients who received Title IV-E payments were reported to SSA in a timely manner to
            determine whether such payments affected continuing entitlement to SSI payments.

    Response: The Department concurs.

    Our goal is to strengthen procedures for monitoring and reporting changes in “aid type” status of our
    child SSI beneficiaries to the Social Security Administration. To achieve this goal, we have increased
    the role of our Revenue Accounting unit in processing all payments received on behalf of our child
    beneficiaries as follows:

            1.     Do an inquiry in WCDS (Welfare Case Data System) to verify the aid-type status of child
                   in order to determine his/her continued eligibility for Social Security benefits.

            2.     If the child aid-type shows a “42” code, child’s care is now federally funded. Hence,
                   Revenue Accounting must immediately request that worker complete and forward Form
                   816 “Change Notification”. This form will show the date child became eligible for
(415) 557-5000                         P.O. Box 7988                         San Francisco, California 94120


      SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                        C-1
              federal funding and it authorizes Revenue Accounting to notify SSA and return any
              payments received from the date the child became eligible.

The Department has analyzed records of recipients who were not entitled to SSI payments
(including the seven mentioned in your report) and on April 4, 2003 refunded $132,381 to SSA.

2.    Changes in Custody Not Reported Timely: SFDHS did not report changes in custody
      for its beneficiaries in a timely manner resulting in $49,423 in benefit overpayments from SSA.

Response: The Department concurs.

We have since refunded these overpayments to SSA and enhanced the procedures to:
      (1) promptly report changes in custody for our child beneficiaries and
      (2) return any conserved funds to SSA in the event the department no longer serves
           as Rep Payee for beneficiaries.

Our goal is to continue to improve service coordination and communication between our
Child Welfare Workers and our Eligibility Workers to ensure that changes in custody are reported in a
timely manner.

3.    Excess Resources Resulted in SSI Overpayments: SFDHS received SSI payments for adult
      recipients with conserved funds in excess of the $2,000 resource limit.

Response: The Department concurs, but no longer serves as Rep Payee for adult SSI recipients.

The Department has successfully transferred all the active adult cases and their balances (including
those with SSI overpayments) to the San Francisco Department Aging and Adult Services and also on
July 23, 2003 we refunded $11,219.11 of overpayments on inactive cases to SSA.

4.    Unnegotiated Checks totaling $12,733 not canceled for adult beneficiaries in the
      department’s care.

Response: The Department concurs.

We have canceled all 81 outstanding, stale-dated checks. Also on August 8, 2003, we refunded $12,301
to the Social Security Administration (for the inactive cases) and $432 to the San Francisco Department
of Aging and Adult Services (for the active cases).

5.     Excess Funds Not Conserved for Child Beneficiaries: SFDHS did not conserve the excess
       funds of beneficiaries placed in foster homes through a foster family agency (FFA).

Response: The Department concurs.

The Department is working to develop a simplified procedure for determining the excess funds of
beneficiaries placed through a foster family agency (FFA). We want to ensure that excess funds are
calculated correctly, conserved, or invested on behalf of the beneficiaries.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                      C-2
6.     Accounting for Social Security Benefits could be Improved:

       a. SFDHS was unaware of the requirement to maintain individual accounts for its beneficiaries.

Response: The Department concurs.

We now maintain separate records on all child beneficiaries to show the benefits we receive from SSA,
payments recorded in the WCDS, and how much savings were accrued and where beneficiary lived
during accounting period..

       b. SSA’s procedures require that Rep Payees apply benefits received on behalf of a beneficiary
          only for the use and benefit of that beneficiary.

Response: The Department concurs.

We have always applied benefits received on behalf of a beneficiary solely for the use and benefit of that
beneficiary, even in the past when the Department did not maintain separate records on child
beneficiaries.

Our goal is to continue to maintain the fiscal integrity and accountability for the conserved funds of all
child beneficiaries for whom we serve as Representative Payee. To this end, in December 2002, we
established two separate subsidiary accounts titled SSI Foster Care Beneficiary Trust and SSA Foster
Care Beneficiary Trust within our Agency Funds group (separate from our General Fund) to track the
OASDI and SSI payments received on each beneficiary. All OASDI and SSI funds received on behalf of
our payees are deposited into these subsidiary accounts.

7.     Bank Account Not Properly Titled: SFDHS incorrectly titled the account for children in foster
       care to show the funds belonged to the Rep Payee rather than the beneficiaries.

Response: The Department concurs.

The Department has created new subsidiary general ledger accounts titled “SSI Foster Care
Beneficiary Trust” and “SSA Foster Care Beneficiary Trust” to reflect that the funds received on
behalf of the beneficiaries are trust funds. We are certain that our new procedures will ensure that all
conserved funds are not mingled with the General Fund or any of the department’s operating funds.


Other Matters:

1.     Conserved Funds Held in a non-interest-bearing account: SFDHS was not aware that SSA
       recommended that conserved funds in excess of $500 for adult beneficiaries be kept in interest-
       bearing accounts.

       Response: The Department concurs.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                         C-3
       SFDHS closed the checking account for the adult beneficiaries in May 2003 and transferred the
       balances of all active cases to the San Francisco Department of Aging and Adult Services
       (SFDAAS), the current Representative Payee for all former SFDHS adult beneficiaries.

2.     Benefit Payments Not Accurately recorded: That SFDHS inadvertently posted two benefit
       payments ($807) to the incorrect adult beneficiary.

Response: The Department concurs.

The $807 belonging to Marvin Peterson, (a deceased SSA beneficiary) was erroneously posted to
Wesley Parker’s account. On July 2, 2002, the department issued $1,646.83 to SSA to close out Peterson
account, understating his balance by the $807. In October 2002, we transferred Parker’s case and the
balance in his account (which included Peterson’s $807) to SFDAAS. We have since taken action to
refund the $807 to SSA and inform SFDAAS of this erroneous posting to Parker account.

Thank you for the opportunity to respond to the draft audit report. If you have any questions please
contact me or you may contact Leo Levenson, Finance Manager, San Francisco Department of Human
Services, (415) 557-5140 or at Leo.Levenson@sfgov.org.

Sincerely,



Trent Rhorer
Executive Director




Note: The name of the beneficiary was redacted to prevent the disclosure of personal
identifying information.


SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)                     C-4
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Bill Fernandez, Director, Western Audit Division, (510) 970-1739

    Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to the persons named above:

    Joseph I. Robleto, Senior Auditor

    Daniel L. Hoy, Auditor

    Brennan Kraje, Statistician, Policy, Planning and Technical Services

    Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-03-13011.




SFDHS – An Organizational Representative Payee for SSA (A-09-03-13011)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
San Francisco Department of Human Services
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
